APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Court of Appeal of the
State of California First Appellate
District Division Four
(September 17, 2019) . . . . . . . . . . App. 1
Appendix B Order in the Supreme Court of
California
(December 18, 2019) . . . . . . . . . . App. 19
Appendix C Order in the Superior Court of
California for the County of San
Francisco
(November 17, 2017) . . . . . . . . . . App. 20
Appendix D Judgment in the Superior Court of
California for the County of San
Francisco
(January 3, 2018) . . . . . . . . . . . . App. 23
Appendix E Order in the Superior Court of
California for the County of San
Francisco
(August 30, 2017) . . . . . . . . . . . . App. 25

App. 1

APPENDIX A
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
A153662
(City & County of San Francisco
Super. Ct. No. 17-558259)
[Filed September 17, 2019]
________________________________
EVAN MINTON,
)
)
Plaintiff and Appellant,
)
)
v.
)
)
DIGNITY HEALTH,
)
)
Defendant and Respondent. )
________________________________ )
Plaintiff Evan Minton appeals the dismissal of his
complaint against defendant Dignity Health, doing
business as Mercy San Juan Medical Center, after the
court sustained Dignity Health’s demurrer without
leave to amend. He contends the court erred in
concluding that his complaint, based on Dignity
Health’s refusal to permit his doctor to perform a
hysterectomy on him at one of its hospitals because of
his sexual identity, fails to allege a violation of Civil

App. 2
Code1 section 51, the Unruh Civil Rights Act (Unruh
Act). Although the parties and several amici curiae
regard the action as presenting a fundamental conflict
between plaintiff’s right to full and equal access to
medical care and the hospital’s right to observe its
religious principles, we conclude that the present
appeal may be resolved on narrower grounds. Without
determining the right of Dignity Health to provide its
services in such cases at alternative facilities, as it
claims to have done here, we agree that plaintiff’s
complaint alleges that Dignity Health initially failed to
do so and that its subsequent rectification of its denial,
while likely mitigating plaintiff’s damages, did not
extinguish his cause of action for discrimination in
violation of the Unruh Act. Accordingly, we shall
reverse the judgment and remand for further
proceedings.
Factual and Procedural Background
Minton filed a verified complaint alleging a cause of
action for violation of section 51, subdivision (b), which
guarantees all persons within the jurisdiction of the
state “full and equal accommodations, advantages,
facilities, privileges, or services in all business
establishments of every kind whatsoever.” His
complaint alleged as follows: Dignity Health is a
tax-exempt nonprofit corporation that owns and
operates a large network of hospitals. Dignity Health
does business in Sacramento County as Mercy San
Juan Medical Center (Mercy). Minton is a transgender
man diagnosed with gender dysphoria.
1

All statutory references are to the Civil Code.

App. 3
The complaint alleges that gender dysphoria is a
serious medical condition codified in the Diagnostic and
Statistical Manual of Mental Disorders. “The medical
diagnosis for the feeling of incongruence between one’s
gender identity and one’s sex assigned at birth, and the
resulting distress caused by that incongruence, is
‘gender dysphoria.’ ” The “widely accepted standards of
care for treating gender dysphoria” include “medical
steps to affirm one’s gender identity and help an
individual transition from living as one gender to
another.” Transgender men often decide to undergo
hysterectomy as a gender-affirming surgical treatment
for gender dysphoria and “[a]ccording to every major
medical organization and the overwhelming consensus
among medical experts, treatments for gender
dysphoria, including surgical procedures such as
hysterectomy, are effective and safe.”
As a course of treatment for his diagnosis, Minton’s
physician, Dr. Lindsey Dawson, scheduled a
hysterectomy for Minton at Mercy on August 30, 2016.
The complaint alleges that it was “the professional
opinion of Mr. Minton’s hysterectomy surgeon and two
mental health professionals who counseled Mr. Minton”
that the “hysterectomy was medically necessary care to
treat his diagnosis for gender dysphoria.” On August
28, 2016, Minton mentioned to a nurse at Mercy that
he is transgender. The following day, Mercy notified
Dr. Dawson that the procedure was cancelled. Mercy’s
president, Brian Ivie, informed Dr. Dawson that she
would “never” be allowed to perform a hysterectomy on
Minton at Mercy because “it was scheduled as part of
a course of treatment for gender dysphoria, as opposed
to any other medical diagnosis.” Mercy routinely allows

App. 4
Dr. Dawson and other physicians to perform
hysterectomies for patients on the bases of diagnoses
other than gender dysphoria, including “for indications
such as chronic pelvic pain and uterine fibroids.”
Mercy’s refusal to allow Dr. Dawson to perform the
hysterectomy caused Minton “great anxiety and grief.”
The complaint explains that the timing of Minton’s
hysterectomy was particularly sensitive because it
needed to be completed three months before his
phalloplasty that was scheduled for November 23.
Ivie suggested that Dr. Dawson could get emergency
admitting privileges at Methodist Hospital, a
non-Catholic Dignity Health hospital about 30 minutes
from Mercy. Ultimately, Dr. Dawson was able to secure
emergency surgical privileges and performed Minton’s
hysterectomy at Methodist Hospital on Friday,
September 2.
The complaint concludes, “Defendant prevented Dr.
Dawson from performing Mr Minton’s hysterectomy to
treat his diagnosis of gender dysphoria, a medical
condition unique to individuals whose gender identity
does not conform to the sex they were assigned at birth.
[¶] Defendant does not prohibit physicians at its
hospitals from treating other diagnoses with
hysterectomy. [¶] By preventing Dr. Dawson from
performing Mr. Minton’s hysterectomy to treat gender
dysphoria, defendant discriminated against Mr. Minton
on the basis of his gender identity.”
Dignity Health filed a demurrer to the complaint on
the ground that Minton failed to allege a violation of
section 51, subdivision (b). Dignity Health argued that
as a Catholic hospital, Mercy is bound to follow its

App. 5
facially neutral “Ethical and Religious Directives for
Catholic Health Care Services” (the Directives) issued
by the United States Conference of Catholic Bishops.2
The Directives prohibit direct sterilization and require
that bodily and functional integrity be protected and
preserved. Dignity Health asserted further that as soon
as the issue arose, it promptly enabled Minton’s
physician to receive temporary surgical privileges to
perform the procedure at another of its hospitals that
was not subject to the Directives. Dignity Health also
asserted that even if Minton had alleged a cause of
action for violation of his civil rights, its federal and
state constitutional rights of free exercise of religion
and freedom of expression bar his claim.
The demurrer was sustained with leave to amend.
The court found the complaint “alleged insufficient
facts to show that Dignity Health’s conduct in
permitting Mr. Minton to receive a hysterectomy at
another of its hospitals violated Dignity Health’s
obligation per Civil Code 51(b) to provide ‘full and
equal’ access to medical procedures without regard to
gender.”
Minton then filed an amended complaint. The
amended complaint alleges that gender dysphoria is “a
medical condition unique to individuals whose gender
identify does not conform to the sex they were assigned
at birth and thus usually experienced by transgender
people.” More significantly, the amended complaint
also clarifies the circumstances under which Minton
alleges he was first denied treatment at Mercy and
2

Without objection the court judicially noticed the Directives.

App. 6
three days later received the hysterectomy at another
Dignity Health hospital.3 He alleges that defendant
suggested the alternative hospital only after Minton
and Dr. Dawson exerted pressure on Dignity Health
through the media and political connections. The
pleading alleges that on the morning of August 29,
after receiving notice that Minton’s surgery had been
cancelled, Dr. Dawson made numerous phones calls,
including one to Ivie who said that she (Dawson) would
never be allowed to perform the hysterectomy on
Minton at Mercy. That afternoon, she and Minton
contacted local media agencies who aired his story. In
response, Dignity Health issued a statement regarding
the Directives which stated, “When a service is not
offered the patient’s physician makes arrangements for
the care of his/her patient at a facility that does provide
the needed service.” (Italics omitted.) That afternoon,
Minton’s attorney also contacted the hospital about the
cancellation of the surgery. During this flurry of
advocacy on Minton’s behalf, Dr. Dawson and others
discussed with Ivie the possibility that Dr. Dawson
could perform Minton’s surgery at the alternative

3

Dignity Health incorrectly argues that the allegations in the
amended complaint are inconsistent with allegations in the
original complaint. In the fist complaint, Minton alleged that Ivie
“suggest[ed]” that Dr. Dawson perform the surgical procedure at
Methodist Hospital but did not allege when the suggestion was
made. As indicated in the following text above, the amended
complaint alleges that the suggestion was forthcoming only after
efforts had been made to reverse the initial denial of hospital
facilities. Similarly, the difficulty presented by Dr. Dawson’s lack
of privileges at Methodist Hospital arose only when efforts were
made to rectify the initial refusal to provide facilities for Minton’s
operation.

App. 7
hospital. However, it was not immediately clear that
this was a viable option because Dr. Dawson did not
have surgical privileges at the other hospital, it would
be difficult to fit the surgery into her busy schedule at
Mercy, and it was unclear that the hospital was within
the network coverage of Minton’s insurance policy.
Dignity Health filed a demurrer to the amended
complaint on the grounds previously asserted with
respect to the original complaint. After briefing and
argument, the demurrer was sustained without leave
to amend. The court explained, “As was true with Mr.
Minton’s complaint, the first amended complaint fails
to allege sufficient facts to show that Dignity Health’s
conduct in permitting Mr. Minton to receive a
hysterectomy at one of its hospitals other than the
hospital where Mr. Minton desired to receive that
procedure violated Dignity Health’s obligation per Civil
Code § 51(b) to provide full and equal access to medical
procedures without regard to gender.” Citing North
Coast Women’s Care Medical Group, Inc. v. Superior
Court (2008) 44 Cal.4th 1145 (North Coast), the court
explained, “Mr. Minton has not alleged, nor does it
appear that it is reasonably possible for him to allege,
that his receiving the procedure he desired from the
physician he selected to perform that procedure three
days later than he had planned and at a different
hospital than he desired deprived him of full and equal
access to the procedure, even assuming, as the court is
required to do on demurrer, that Dignity Health’s
refusal to have the procedure performed at [Mercy] was
substantially motivated by Mr. Minton’s gender
identity.”

App. 8
A judgment of dismissal was entered and Minton
timely filed a notice of appeal. With the court’s
permission, amicus curiae briefs have been filed on
Minton’s behalf by the National Center for Lesbian
Rights and the California Medical Association and in
support of Dignity Health by the Catholic Health
Association of the United States, the Alliance of
Catholic Health Care, and the Catholic Medical
Association.
Discussion
I.

Standard of Review

“On appeal from a judgment of dismissal after a
demurrer is sustained without leave to amend, the
reviewing court assumes the truth of all facts properly
pleaded by the plaintiff. [Citations.] We also accept as
true all facts that may be implied or reasonably
inferred from those expressly alleged. [Citation.] We do
not assume the truth of ‘ “ ‘contentions, deductions or
conclusions of fact or law.’ ” ’ [Citations.] We review the
trial court’s action de novo and exercise our own
independent judgment whether a cause of action has
been stated under any legal theory. [Citation.] We
review the court’s refusal to allow leave to amend
under the abuse of discretion standard.” (Buller v.
Sutter Health (2008) 160 Cal.App.4th 981, 985-986.)
II.

The Unruh Act applies to Minton’s
intentional discrimination claim.

“ ‘[A] plaintiff seeking to establish a case under the
Unruh Act must plead and prove intentional
discrimination in public accommodations in violation of
the terms of the Act. A disparate impact analysis or

App. 9
test does not apply to Unruh Act claims.’ ” (Koebke v.
Bernardo Heights Country Club (2005) 36 Cal.4th 824,
854.)
Dignity Health contends that Minton’s pleading
fails to allege a claim for intentional discrimination. It
suggests that, at most, Minton has alleged a claim for
disparate impact based on Mercy’s adherence to the
facially neutral Directives. (See Turner v. Association
of American Medical Colleges (2008) 167 Cal.App.4th
1401, 1408 [“A policy that is neutral on its face is not
actionable under the Unruh Act, even when it has a
disproportionate impact on a protected class.”]; § 51,
subd. (c) [“This section shall not be construed to confer
any right or privilege on a person that is conditioned or
limited by law or that is applicable alike to persons of
every sex, color, race, religion, ancestry, national
origin, disability, medical condition, marital status, or
sexual orientation. . . .”].)
In support of its demurrer, Dignity Health cites
Directive No. 29 which states, “All persons served by
Catholic health care have the right and duty to protect
and preserve their bodily and functional integrity. The
functional integrity of the person may be sacrificed to
maintain the health or life of the person when no other
morally permissible means is available.” (Endnote
omitted.) Directive No. 53 states, “Direct sterilization
of either men or women, whether permanent or
temporary, is not permitted in a Catholic health care
institution. Procedures that induce sterility are
permitted when their direct effect is the cure or
alleviation of a present and serious pathology and a
simpler treatment is not available.”

App. 10
While Dignity Health may be able to assert reliance
on the Directives as a defense to Minton’s claim, the
matter is not suitable for resolution by demurrer. (See
North Coast, supra, 44 Cal.4th at p. 1161 [defendant
physicians can “offer evidence at trial that their
religious objections were to participating in the medical
insemination of an unmarried woman and were not
based on plaintiff’s sexual orientation, as her complaint
alleged.”].) The allegations of the complaint are that
Dignity Health refused to allow Dr. Dawson to perform
the hysterectomy at Mercy hospital because of Minton’s
gender identity. The pleading alleges that Mercy allows
doctors to perform hysterectomies as treatment for
other conditions but refused to allow Dr. Dawson to
perform the same procedure as treatment for Minton’s
gender dysphoria, a condition that is unique to
transgender individuals. Denying a procedure as
treatment for a condition that affects only transgender
persons supports an inference that Dignity Health
discriminated against Minton based on his gender
identity. This is true even if the denial was pursuant to
a facially neutral policy. (See Koebke v. Bernardo
Heights Country Club, supra, 36 Cal.4th at p. 854
[“Evidence of disparate impact [can] be admitted in
Unruh Civil Rights Act cases because ‘such evidence
may be probative of intentional discrimination in some
cases.’ ”].) Moreover, if Dignity Health defends by
asserting it was complying with the facially neutral
Directives, Minton may attempt to establish that the
hospital applied the Directives in a discriminatory
manner. (Id. at pp. 854-855.)
Dignity Health’s contention that its action was
motivated by adherence to neutral Directives and not

App. 11
at all by Minton’s medical condition or sexual
orientation, contrary to the allegations in the
complaint, is not susceptible to resolution by demurrer.
III.

The pleading alleges that Dignity Health
denied Minton “full and equal” access to
medical care.

The trial court concluded that Minton’s claim is
precluded by dicta in the California Supreme Court’s
decision in North Coast, supra, 44 Cal.4th 1145. In
North Coast, a patient sued a medical group and two of
its employee physicians alleging their refusal to
perform artificial insemination on her violated the
Unruh Act. (Id. at pp. 1152-1153.) The patient was a
lesbian and defendant doctors, citing their religious
beliefs, refused to perform artificial insemination on
the patient because of her sexual orientation. The
question before the court was whether the physicians’
First Amendment right to free exercise of religion
exempted them from conforming their conduct to the
Unruh Act’s requirement to provide “ ‘full and equal
accommodations, advantages, facilities, privileges, or
services.’ ” (Id. at p. 1154.) The court held that the
California Constitution’s guarantee of free exercise of
religion does not exempt physicians from conforming
their conduct to the Unruh Act’s antidiscrimination
requirements even if compliance substantially burdens
their religious beliefs. (Id. at p. 1158.) Applying a strict
scrutiny analysis, the court explained that the Unruh
Act “furthers California’s compelling interest in
ensuring full and equal access to medical treatment
irrespective of sexual orientation, and there are no less
restrictive means for the state to achieve that goal.”

App. 12
(Ibid.) The court observed, however, “To avoid any
conflict between their religious beliefs and the state
Unruh Civil Rights Act’s antidiscrimination provisions,
defendant physicians can simply refuse to perform
the . . . medical procedure at issue here for any patient
of North Coast, the physicians’ employer. Or, because
they incur liability under the Act if they infringe upon
the right to the ‘full and equal’ services of North Coast’s
medical practice [citations], defendant physicians can
avoid such a conflict by ensuring that every patient
requiring [the procedure] receives ‘full and equal’
access to that medical procedure through a North Coast
physician lacking defendants’ religious objections.” (Id.
at p. 1159.)
Based on this explanation in North Coast, the trial
court here concluded: “Mr. Minton has not alleged, nor
does it appear that it is reasonably possible for him to
allege, that his receiving the procedure he desired from
the physician he selected to perform that procedure
three days later than he had planned and at a different
hospital than he desired deprived him of full and equal
access to the procedure, even assuming . . . that Dignity
Health’s refusal to have the procedure performed at
[Mercy] was substantially motivated by Mr. Minton’s
gender identity.” (Italics added.)
The trial court’s fundamental error is that it
misconstrues Minton’s pleading. Minton does not
allege, nor does he contend on appeal, that providing
him with access to alternative hospital facilities
violated the Unruh Act. He alleges that the Act was
violated on August 29, 2016, when defendant cancelled
the scheduled procedure at Mercy and Mercy’s

App. 13
president told Dr. Dawson that she would never be
allowed to perform Minton’s hysterectomy at Mercy.
According to the amended complaint, that refusal was
not accompanied by advice that the procedure could
instead be performed at a different nearby Dignity
Health hospital. At that point in time, according to the
amended complaint, Minton was denied full and equal
access to health care treatment, a violation of the
Unruh Act.
Allegedly in response to pressures brought to bear
on defendant, within a relatively short period of time
Ivie proposed use of the facilities at the alternative
hospital. In doing so, and in making those alternate
facilities available three days later, defendant
undoubtedly substantially reduced the impact of the
initial denial of access to its facilities and mitigated the
damages to which Minton otherwise would have been
entitled. However, the steps that were taken to rectify
the denial in response to pressure from Minton and
from the media did not undo the fact that the initial
withholding of facilities was absolute, unqualified by
an explanation that equivalent facilities would be
provided at an alternative location.
To be clear, we do not question the observation in
North Coast that “[t]o avoid any conflict between their
religious beliefs and the state Unruh Civil Rights Act’s
antidiscrimination provisions, defendant physicians . . .
can avoid such a conflict by ensuring that every patient
requiring [a procedure] receives ‘full and equal’ access
to that medical procedure through a [hospital]
physician lacking defendants’ religious objections.”
(North Coast, supra, 44 Cal.4th at p. 1159.) But the

App. 14
amended complaint alleges that Dignity Health failed
to provide such assurance here, albeit for a relatively
short period of time. The facts alleged in the amended
complaint are that Dignity Health initially did not
ensure that Minton had “full and equal” access to a
facility for the hysterectomy. To the contrary, “he
experienced a startling and painful notification that
the surgery would not go forward.” When his surgery
was cancelled, he was subjected to discrimination.
Dignity Health’s subsequent reactive offer to arrange
treatment elsewhere was not the implementation of a
policy to provide full and equal care to all persons at
comparable facilities not subject to the same religious
restrictions that applied at Mercy. As Minton argued at
the hearing on the demurrer, it cannot constitute full
equality under the Unruh Act to cancel his procedure
for a discriminatory purpose, wait to see if his doctor
complains, and only then attempt to reschedule the
procedure at a different hospital. “Full and equal”
access requires avoiding discrimination, not merely
remedying it after it has occurred.
Dignity Health argues that “[e]ven assuming
Minton had alleged an Unruh Act violation, his claim
still would be barred by the guarantees of religious
freedom and freedom of expression enshrined in the
California and federal Constitutions. (Cal. Const.,
art. I, §§ 2, 4; U.S. Const. amend. I . . .].) Using Unruh
to force Mercy to violate the [ethical and religious
directives] places an unacceptable burden on the
constitutional right of religious freedom. Similarly,
compelling Mercy to convey the message that a
hysterectomy in these circumstances is consistent with

App. 15
the healing ministry of Jesus would violate Mercy’s
freedom of expression.”
As explained above, upholding Minton’s claim does
not compel Dignity Health to violate its religious
principles if it can provide all persons with full and
equal medical care at comparable facilities not subject
to the same religious restrictions. If it cannot and to
the extent there is any compulsion, Dignity Health’s
arguments were soundly rejected in North Coast,
supra, 44 Cal.4th 1145. The Supreme Court, applying
a strict scrutiny analysis, held that any burden the
Unruh Act places on the exercise of religion is justified
by California’s compelling interest in ensuring full and
equal access to medical treatment for all its residents,
and that there are no less restrictive means available
for the state to achieve that goal. (Id. at p. 1158; see
also Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission (2018) __ U.S. __, __ [138 S.Ct.
1719, 1727] [“While . . . religious and philosophical
objections are protected [by the First Amendment], it
is a general rule that such objections do not allow
business owners and other actors in the economy and
in society to deny protected persons equal access to
goods and services under a neutral and generally
applicable public accommodations law.”].) The court
also rejected the contention that compelling doctors to
perform a procedure on all persons “infringes upon
their First Amendment rights to free speech and free
exercise of religion.” (44 Cal.4th at p. 1157.) Quoting
from Catholic Charities of Sacramento, Inc. v. Superior
Court (2004) 32 Cal.4th 527, 558, the court repeated,
“ ‘For purposes of the free speech clause, simple
obedience to a law that does not require one to convey

App. 16
a verbal or symbolic message cannot reasonably be
seen as a statement of support for the law or its
purpose.’ ” (44 Cal.4th at p. 1157.)
Disposition
The judgment and the order sustaining the
demurrer to the amended complaint are reversed. The
trial court is directed to enter a new and different order
overruling the demurrer. Plaintiff shall recover his
costs on appeal.
POLLAK, P. J.
WE CONCUR:
TUCHER, J.
BROWN, J.

App. 17
Trial court:

San
Francisco County
Superior Court

Trial judge:

Honorable Harold E. Kahn

Counsel for Appellant:

COVINGTON & BURLING
LLP, Christin Haskett and
Lindsey Barnhart
ACLU FOUNDATION OF
NORTHERN CALIFORNIA,
Elizabeth O. Gill and
Christine P. Sun
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA,
Amanda Goad and Melissa
Goodman
AMERICAN
CIVIL
LIBERTIES FOUNDATION,
Lindsey Kaley
Julie Wilensky and Asaf Orr
for National Center For
Lesbian Rights and twelve
additional nonprofit
organizations as amicus
curiae on behalf of Plaintiff
and Appellant.

App. 18
DURIE TANGRI LLP,
Benjamin B. Au, Laura E.
Miller, Lauren E. Kapsky,
Francisco J. Silva, Long X.
Do and Lisa Matsubara for
the California Medical
Association on behalf of
Plaintiff and Appellant.
Counsel for Respondent: M A N A T T , P H E L P S
PHILLIPS, LLP, Barry
Landsberg, Harvey
Rochman, Joanna
McCallum and Craig
Rutenberg

&
S.
L.
S.
S.

David L. Shapiro
GREENE & ROBERTS
LLP, Stephen J. Green, Jr.,
STRADLEY RONON
STEVENS & YOUNG, LLP,
Mark E. Chopko and
Jennifer Gniady for The
Catholic Health Association
of the United States and
Alliance of Catholic Health
Care as amicus curiae on
behalf of Defendant and
Respondent.

A153662

App. 19

APPENDIX B
Court of Appeal, First Appellate District, Division
Four - No. A153662
S258784
[Filed December 18, 2019]
IN THE SUPREME COURT OF CALIFORNIA
En Banc
__________________________________________________
EVAN MINTON, Plaintiff and Appellant,
v.
DIGNITY HEALTH, Defendant and Respondent.
__________________________________________________
The petition for review is denied.

CANTIL-SAKAUYI
Chief Justice

App. 20

APPENDIX C
SUPERIOR COURT OF THE STATE OF
CALIFORNIA FOR THE COUNTY OF
SAN FRANCISCO
Case No. CGC 17-558259
Date: November 17, 2017
Time: 9:30 a.m.
Dept.: 302
______________________________________
EVAN MINTON,
)
)
Plaintiff,
)
)
vs.
)
)
DIGNITY HEALTH; DIGNITY HEALTH )
d/b/a MERCY SAN JUAN MEDICAL
)
CENTER,
)
)
Defendants.
)
______________________________________ )
/HK
[PROPOSED] ORDER
On November 17,2017, in Department 302 of the
above-entitled Court, the Court heard Defendant
Dignity Health’s demurrer to Plaintiff Evan Minton’s
Verified First Amended Complaint.

App. 21
Having considered the moving papers, opposition,
reply brief, and oral argument of counsel, the Court
sustains the demurrer without leave to amend.
Judge Kahn discloses that one of the attorneys for
Mr. Minton is the sister of a person whom Judge Kahn
considers to be part of his extended family, but Judge
Kahn believes that that fact does not cause him to be
other than fair or impartial in this case or otherwise
require his recusal. The precise relationship is that
Elizabeth Gill is the sister of the brother-in-law of
Judge Kahn’s nephew.
Defendant Dignity Health’s demurrer to plaintiff
Evan Minton’s first amended verified complaint is
sustained without leave to amend. As was true with
Mr. Minton’s complaint, the first amended complaint
fails to allege sufficient facts to show that Dignity
Health’s conduct in permitting Mr. Minton to receive a
hysterectomy at one of its hospitals other than the
hospital where Mr. Minton desired to receive that
procedure violated Dignity Health’s obligation per Civil
Code § 51(b) to provide full and equal access to medical
procedures without regard to gender. (North Coast
Women’s Care Medical Group, Inc. v. San Diego County
Superior Court (2008) 44 Cal. 4th 1145, 1159). Because
it appears to be considered of import by the Supreme
Court and part of the teachings of that case, there is no
basis for this court to ignore the dicta in North Coast.
As applied to Mr. Minton’s sole claim for violation of
the Unruh Act, the North Coast dicta shows that the
claim is not viable. Mr. Minton has not alleged, nor
does it appear that it is reasonably possible for him to
allege, that his receiving the procedure he desired from

App. 22
the physician he selected to perform that procedure
three days later than he had planned and at a different
hospital than he desired deprived him of full and equal
access to the procedure, even assuming, as the court is
required to do on demurrer, that Dignity Health’s
refusal to have the procedure performed at MSJMC
was substantially motivated by Mr. Minton’s gender
identity.
Both parties’ requests for judicial notice are
granted.
IT IS SO ORDERED:
Date: November 17, 2017
s/___________________________
Hon. Harold E. Kahn
Judge of the Superior Court

App. 23

APPENDIX D
SUPERIOR COURT OF THE STATE OF
CALIFORNIA FOR THE COUNTY OF
SAN FRANCISCO
Case No. CGC 17-558259
[Filed January 3, 2018]
______________________________________
EVAN MINTON,
)
)
Plaintiff,
)
)
vs.
)
)
DIGNITY HEALTH; DIGNITY HEALTH )
d/b/a MERCY SAN JUAN MEDICAL
)
CENTER,
)
)
Defendants.
)
______________________________________ )
[PROPOSED] JUDGMENT
Pursuant to the Order entered by the Court on
November 17, 2017 sustaining without leave to amend
Defendant Dignity Health’s Demurrer to Plaintiff Evan
Minton’s Verified First Amended Complaint,
JUDGMENT is hereby ENTERED in favor of Dignity
Health. Plaintiff shall take nothing by his complaint in
this action. Defendant is the prevailing party as
defined by California Code of Civil Procedure Section

App. 24
1032(a)(4), and is entitled to recover its costs of suit
incurred herein as defined in California Code of Civil
Procedure Section 1033.5.
Date: January 2, 2018
s/___________________________
Hon. Harold E. Kahn
Judge of the Superior Court

App. 25

APPENDIX E
SUPERIOR COURT OF THE STATE OF
CALIFORNIA FOR THE COUNTY OF
SAN FRANCISCO
Case No. CGC 17-558259
Date: August 30, 2017
Time: 9:30 a.m.
Dept.: 302
______________________________________
EVAN MINTON,
)
)
Plaintiff,
)
)
vs.
)
)
DIGNITY HEALTH; DIGNITY HEALTH )
d/b/a MERCY SAN JUAN MEDICAL
)
CENTER,
)
)
Defendants.
)
______________________________________ )
/HK
[PROPOSED] ORDER
Sustaining Dignity Health’s Demurrer to Verified
Complaint
On August 30, 2017, in Department 302 of the
above-entitled Court, the Court heard Defendant

App. 26
Dignity Health’s demurrer to Plaintiff Evan Minton’s
Verified Complaint.
Having considered the moving papers, opposition,
reply brief, and oral argument of counsel, the Court
sustains the demurrer with 20 days leave to amend.
Although Mr. Minton’s complaint is silent about the
reason why his request for a hysterectomy at Mercy
San Juan Medical Center (“MSJMC”) was denied, both
sides agree that the reason was MSJMC’s
interpretation of the Ethical and Religious Directives
for Catholic Health Care Services. Based on this
agreement and the parties’ memoranda having
addressed the religion-based arguments raised by
Dignity Health, the court has treated those arguments
as properly raised on this demurrer. In paragraphs 2326 of his complaint, Mr. Minton has alleged insufficient
facts to show that Dignity Health’s conduct in
permitting Mr. Minton to receive a hysterectomy at
another of its hospitals violated Dignity Health’s
obligation per Civil Code 51(b) to provide “full and
equal” access to medical procedures without regard to
gender. (North Coast Women’s Care Medical Group,
Inc. v. San Diego County Superior Court (2008) 44 Cal.
4th 1145, 1159). While the dicta in North Coast
involved a medical procedure performed by a different
doctor in the same facility, that dicta is, at least in
some situations, also applicable to a medical procedure
performed by the same doctor in a different facility.
Because it is at least theoretically possible that Mr.
Minton is able to allege sufficient facts to avoid a
demurrer based on the North Coast dicta, if he can do

App. 27
so in good faith, he is given leave to amend to allege
such facts.
Date: August 30, 2017
s/___________________________
Hon. Harold E. Kahn
Judge of the Superior Court

